<html>
<title> - EXPLORING OUR SOLAR SYSTEM: THE ASTEROIDS ACT AS A KEY STEP</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                      EXPLORING OUR SOLAR SYSTEM:
                    THE ASTEROIDS ACT AS A KEY STEP

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           September 10, 2014

                               __________

                           Serial No. 113-93

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://science.house.gov
       
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

92-326 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       








       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              ROBIN KELLY, Illinois
KEVIN CRAMER, North Dakota           KATHERINE CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
BILL JOHNSON, Ohio
                                 ------                                

                         Subcommittee on Space

               HON. STEVEN M. PALAZZO, Mississippi, Chair
RALPH M. HALL, TEXAS                 DONNA F. EDWARDS, Maryland
DANA ROHRABACHER, California         SUZANNE BONAMICI, Oregon
FRANK D. LUCAS, Oklahoma             DAN MAFFEI, New York
MICHAEL T. MCCAUL, Texas             JOSEPH P. KENNEDY III, 
MO BROOKS, ALABAMA                       Massachusetts
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
JIM BRIDENSTINE, Oklahoma            FREDERICA WILSON, Florida
CHRIS COLLINS, New York              EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas












                            C O N T E N T S

                           September 10, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Steven M. Palazzo, Chairman, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    12
    Written Statement............................................    13

Statement by Representative Bill Posey, Subcommittee on Space, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    13

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    14
    Written Statement............................................    15

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    16
    Written Statement............................................    17

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    18
    Written Statement............................................    18

                               Witnesses:

Dr. Jim Green, Director, NASA Planetary Science Division
    Oral Statement...............................................    20
    Written Statement............................................    22
Dr. Philip Christensen, Co-Chair, NRC Committee on Astrobiology 
  and Planetary Science (CAPS), Chair, Mars Panel, NRC Planetary 
  Decadal Survey, Regents Professor, Arizona State University
    Oral Statement...............................................    29
    Written Statement............................................    31

Dr. Jim Bell, Professor of Earth and Space Science Exploration, 
  Arizona State University, and President, Board of Directors, 
  The Planetary Society
    Oral Statement...............................................    36
    Written Statement............................................    39

Dr. Mark Sykes, CEO and Director, Planetary Science Institute
    Oral Statement...............................................    51
    Written Statement............................................    53

Ms. Joanne Gabrynowicz, Professor Emerita, Director Emerita, 
  Journal of Space Law Editor-in-Chief Emerita, University of 
  Mississippi
    Oral Statement...............................................    67
    Written Statement............................................    69

Discussion.......................................................    81

             Appendix I: Answers to Post-Hearing Questions

Dr. Jim Green, Director, NASA Planetary Science Division.........    98

Dr. Philip Christensen, Co-Chair, NRC Committee on Astrobiology 
  and Planetary Science (CAPS), Chair, Mars Panel, NRC Planetary 
  Decadal Survey, Regents Professor, Arizona State University....   108

Dr. Jim Bell, Professor of Earth and Space Science Exploration, 
  Arizona State University, and President, Board of Directors, 
  The Planetary Society..........................................   115

Dr. Mark Sykes, CEO and Director, Planetary Science Institute....   130

Ms. Joanne Gabrynowicz, Professor Emerita, Director Emerita, 
  Journal of Space Law Editor-in-Chief Emerita, University of 
  Mississippi....................................................   136

            Appendix II: Additional Material for the Record

Letters submitted for the record by Steven M. Palazzo, Chairman, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   148

 
                      EXPLORING OUR SOLAR SYSTEM:
                    THE ASTEROIDS ACT AS A KEY STEP

                              ----------                              


                      WEDNESDAY SEPTEMBER 10, 2014

                  House of Representatives,
                              Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Steven 
Palazzo [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Palazzo. The Subcommittee on Space will come to 
order.
    Good morning. Welcome to today's hearing titled ``Exploring 
Our Solar System: The ASTEROIDS Act as a Key Step.'' In front 
of you are packets containing the written testimony, 
biographies, and Truth in Testimony disclosures for today's 
witness. I recognize myself for five minutes for an opening 
statement.
    Good morning. I would like to thank our witnesses for being 
here today to testify about future scientific exploration of 
our solar system and the recently introduced ASTEROIDS Act.
    Planetary science has long inspired us to imagine what it 
would be like to visit another planet in our solar system. It 
has shown us that there are methane lakes on Saturn's moon, 
Titan, icy plumes on Jupiter's moon, Enceladus, and that humans 
can maintain a robotic presence on Mars.
    However, over the last few years the Administration has 
consistently cut NASA's Planetary Science Division budget. 
Meanwhile, NASA's Earth Science program has grown by more than 
40 percent. There are 13 other agencies throughout the Federal 
Government that currently fund over $2.5 billion in climate 
science research, but only one agency does space exploration 
and space science.
    Congress has long been a supporter of planetary science, 
particularly as it pertains to asteroids. After the air burst 
over Chelyabinsk, Russia, that caused tens of millions of 
dollars in damage and injured nearly 1,500 people, this 
Committee held two hearings on NASA's near-Earth asteroid 
tracking program and its efforts to fulfill the requirements of 
the George E. Brown Near-Earth Object Survey Act.
    Support for the detection and characterization of asteroids 
is not to be confused with the President's current proposed 
Asteroid Redirect Mission, or ARM. It is no secret that this 
Committee has expressed significant skepticism with regards to 
ARM. NASA's own experts have been critical of the plan. NASA's 
own Small Bodies Assessment Group recently said ``its benefits 
for advancing the knowledge of asteroids and furthering 
planetary defense strategies are limited and not compelling.'' 
Additionally, the NASA Advisory Council has warned that ``the 
ARM mission as currently defined may pose an unacceptable cost 
and technical risk.'' This is not the type of review you want 
to hear from the experts that NASA has chartered to provide 
advice. While I am indeed interested in the opportunities 
offered by near-Earth objects, I continue to be concerned that 
the Administration is not heeding the warnings of these experts 
for the mission that it has designed.
    Today we will also be discussing the bipartisan efforts of 
two members of this Committee to offer a legal framework for 
the private sector to utilize celestial resources. The American 
Space Technology for Exploring Resource Opportunities in Deep 
Space Act, or ASTEROIDS Act, is a bipartisan bill introduced by 
Congressman Posey and Congressman Kilmer. The two of them have 
worked very hard to put this legislation together, and I am 
interested to hear what our witnesses have to say about the 
potential benefits offered by space resource utilization.
    It is my sincere hope that the Administration will stop 
spending time on poorly designed and executed missions such as 
ARM, and look to the private sector and scientists for input on 
the best way to maximize our limited resources.
    [The prepared statement of Mr. Palazzo follows:]

              Prepared Statement of Subcommittee on Space
                       Chairman Steven M. Palazzo

    Good morning. I would like to thank our witnesses for being here 
today to testify about future scientific exploration of our solar 
system and the recently introduced ASTEROIDS Act.
    Planetary science has long inspired us to imagine what it would be 
like to visit another planet in our solar system. It has shown us that 
there are methane lakes on Saturn's moon Titan, icy plumes on Jupiter's 
moon Enceladus, and that humans can maintain a robotic presence on 
Mars.
    However, over the last few years the Administration has 
consistently cut NASA's Planetary Science Division budget. Meanwhile, 
NASA's Earth Science program has grown by more than 40%. There are 13 
agencies throughout the federal government that currently fund over 
$2.5 billion in climate science research, but only one agency does 
space exploration and space science.
    Congress has long been a supporter of planetary science, 
particularly as it pertains to asteroids. After the air burst over 
Chelyabinsk (Russia) that caused tens of millions of dollars in damage 
and injured nearly 1,500 people, this committee held two hearings on 
NASA's near Earth asteroid tracking programs and its efforts to fulfill 
the requirements of the George E. Brown Near-Earth Object Survey Act.
    Support for the detection and characterization of asteroids is not 
to be confused with the President's current proposed Asteroid Redirect 
Mission or ARM. It is no secret that this committee has expressed 
significant skepticism with regards to ARM. NASA's own experts have 
been critical the plan. NASA's own Small Bodies Assessment Group 
recently said ``its benefits for advancing the knowledge of asteroids 
and furthering planetary defense strategies are limited and not 
compelling.'' Additionally, the NASA Advisory Council has warned that 
``the ARM mission as currently defined may pose an unacceptable cost 
and technical risk.''
    This is not the type of review you want to hear from the experts 
that NASA has chartered to provide advice. While I am indeed interested 
in the opportunities offered by near-Earth objects, I continue to be 
concerned that the Administration is not heeding the warnings of these 
experts for the mission that it has designed.
    Today we will also be discussing the bipartisan efforts of two 
members of this committee to offer a legal framework for the private 
sector to utilize celestial resources. The ``American Space Technology 
for Exploring Resource Opportunities In Deep Space Act'' or ASTEROIDS 
Act, is a bipartisan bill introduced by Congressman Posey and 
Congressman Kilmer. The two of them have worked very hard to put this 
legislation together and I am interested to hear what our witnesses 
have to say about the potential benefits offered by space resource 
utilization.
    It is my sincere hope that the Administration will stop spending 
time on poorly designed and executed missions such as ARM and look to 
the private sector and scientists for input on the best way to maximize 
our limited resources.
    At this time, I yield my remaining time to Mr. Posey from Florida.

    Chairman Palazzo. At this time, I yield my remaining time 
to Mr. Posey from Florida.
    Mr. Posey. Thank you, Mr. Chairman, for holding this 
hearing, which will include discussion on H.R. 5063, the 
ASTEROIDS Act. I would like to thank my colleague and original 
cosponsor, Congressman Derek Kilmer, for his work on this bill 
and the 10 bipartisan cosponsors who we already have on this 
Committee.
    Mr. Chairman, this is an exciting bill, both in subject 
matter and as a matter of practical legislation. Space 
exploration is inspiring, and today we will discuss the 
importance of a legal framework to encourage a new area of 
private space exploration. Today, private companies do not have 
legal certainty that if they obtain resources from an asteroid 
that they can own them. The ASTEROIDS Act would provide this 
certainty to American companies, and companies are empowered to 
conduct their operations without harmful interference. 
Asteroids can hold valuable minerals, some in impressive 
quantities, as well as resources essential for continued space 
exploration.
    I look forward to further discussion on this topic. Again, 
if you want American commercial space companies to get off the 
ground, we need to create the proper legal framework for them 
to do so.
    Thank you, Mr. Chairman. I yield back.
    Chairman Palazzo. Thank you, Mr. Posey.
    I now recognize the Ranking Member, the gentlelady from 
Maryland, Ms. Edwards.
    Ms. Edwards. Thank you very much, Mr. Chairman, for holding 
today's hearing on planetary science, and I hope we do focus on 
the science, and I want to welcome our distinguished panel of 
witnesses this morning.
    The accomplishments in planetary science research and 
robotic exploration of the solar system are indicative of the 
exemplary work being done by NASA and its industry contractors, 
academia, and the non-governmental entities that comprise the 
planetary science community. The discoveries and advancements 
being enabled by NASA's planetary science program are in fact 
thrilling.
    Just weeks from now, NASA's MAVEN spacecraft will enter 
into Mars orbit for its study of the Mars atmosphere. In 
October, just over a month from now, it will be ``all hands on 
deck'' for our Mars orbiters and rovers when NASA will have an 
unprecedented opportunity to use these assets to observe C/2013 
A1--otherwise known as Comet Siding Spring--as it passes near 
Mars and bathes the planet in dust from its coma and tail. It 
is fortuitous that MAVEN, which will be a key observer of this 
event, will have arrived just weeks before Siding Spring's 
encounter with Mars. Finally, later this fall, the European-
U.S. Rosetta comet mission will make the first attempt at a 
controlled landing of a robotic lander on a comet.
    What this means to me is that we are getting real value 
from our investments, our current investments, in planetary 
science, and in fact, I would point out that the authorization 
bill that was approved unanimously out of this Subcommittee, 
and out of this Congress, balances those investments with other 
investments that we are making in the other important missions 
of NASA. Because a strong planetary science program is 
important not only to advancing our scientific understanding of 
the solar system but also to detecting potentially hazardous 
near-Earth objects, providing scientific insights relevant to 
the long-term goal of sending humans to Mars and to training of 
our future scientists and engineers, and I can't underscore 
enough the importance of NASA's programs including planetary 
science to inspiring the next generation. NASA's science 
missions provide concrete connections between learning science, 
technology, engineering, and math in the classroom and exciting 
projects in space, perhaps even ones that students dream to be 
a part of one day.
    Mr. Chairman, I look forward to hearing from our witnesses 
on the many developments taking place in planetary science. I 
also look forward to working with you on ensuring that Congress 
provides the resources NASA needs for all of its mission areas, 
including planetary science, to enable a robust and innovative 
21st century U.S. space program going forward.
    And while my understanding is that the purpose of this 
hearing is to examine planetary science, as well I note that 
the majority has asked for discussion on H.R. 5063, the 
ASTEROIDS Act. The issues raised by the Act on resource 
utilization and property rights are important and interesting 
areas that I hope the Subcommittee will continue to explore 
more substantively in the next Congress.
    Before I close, I also want to acknowledge the presence of 
our former chairman, Bart Gordon, with us here today and say 
hello to him and thank him for his continued public service 
even outside of Congress, and I want to take a moment to 
remember a key figure in NASA's planetary sciences, Dr. Noel 
Hinners, who passed away just this last Friday. Dr. Hinners was 
a Chief Scientist of NASA, Director of the Goddard Space Flight 
Center out in Prince George's County, where I live. He directed 
also the Smithsonian's National Air and Space Museum, and was 
Vice President of Flight Systems at Lockheed Martin where he 
was responsible for Lockheed's work on planetary science 
missions. NASA's planetary science program wouldn't be what it 
is today without the contributions of leaders such as Dr. 
Hinners, and our thoughts and prayers are with his family 
during this difficult time.
    I want to say in closing that we have a lot of issues to 
explore, and they aren't just about the United States. They 
implicate our partners internationally, so as we move forward, 
let's think about our responsibility not just to U.S.-based 
companies, and we are concerned about those, but also to 
connecting our concerns with our international partners so that 
we can truly move forward in a 21st century manner for our 
space program, and I yield back.
    [The prepared statement of Ms. Edwards follows:]

              Prepared Statement of Subcommittee on Space
                Ranking Minority Member Donna F. Edwards

    Thank you, Mr. Chairman, for holding today's hearing on planetary 
science, and welcome to our distinguished panel of witnesses.
    The accomplishments in planetary science research and robotic 
exploration of the solar system are indicative of the exemplary work 
being done by NASA and its industry contractors, academia, and the non-
governmental entities that comprise the planetary science community. 
The discoveries and advancements being enabled by NASA's planetary 
science program are thrilling.
    Just weeks from now, NASA's MAVEN spacecraft will enter into Mars 
orbit for its study of the Mars atmosphere. And in October, just over a 
month from now, it will be ``all hands on deck'' for our Mars orbiters 
and rovers when NASA will have an unprecedented opportunity to use 
these assets to observe C/2013 A1--otherwise known as Comet Siding 
Spring--as it passes near Mars and bathes the planet in dust from its 
coma and tail. It is fortuitous that MAVEN, which will be a key 
observer of this event, will have arrived just weeks before Siding 
Spring's encounter with Mars. Finally, later this fall, the European-
U.S. Rosetta comet mission will make the first attempt at a controlled 
landing of a robotic lander on a comet.
    What this means to me is that we are getting real value from our 
investments in planetary science. Because a strong planetary science 
program is important not only to advancing our scientific understanding 
of the solar system, but also to detecting potentially hazardous 
nearEarth objects, providing scientific insights relevant to the long-
term goal of sending humans to Mars, and to the training of our future 
scientists and engineers.
    And I can't underscore enough the importance of NASA's programs, 
including planetary science, to inspiring the next generation. NASA's 
science missions provide concrete connections between learning science, 
technology, engineering, and math in the classroom and exciting 
projects in space, perhaps even ones that students dream to be a part 
of one day.
    Mr. Chairman, I look forward to hearing from our witnesses on the 
many developments taking place in planetary science. I also look 
forward to working with you on ensuring that Congress provides the 
resources NASA needs for all of its mission areas, including planetary 
science, to enable a robust and innovative 21st century U.S. space 
program going forward.
    And while my understanding is that the purpose of this hearing is 
to examine planetary science, I also note that the Majority has asked 
for discussion on H.R. 5063, the ASTEROIDS Act. The issues raised by 
the Act on resource utilization and property rights are important and 
interesting areas that I hope the Subcommittee will continue to explore 
more substantively in the next Congress.
    Before I close, I want to remember a key figure in NASA and 
planetary sciences, Dr. Noel Hinners, who passed away last Friday. Dr. 
Hinners was a chief scientist of NASA, director of the Goddard Space 
Flight Center, director of the Smithonsian's National Air and Space 
Museum, and vice president of flight systems at Lockheed Martin where 
he was responsible for Lockheed's work on NASA planetary science 
missions.
    NASA's planetary science program wouldn't be what it is today 
without the contributions of leaders such as Dr. Hinners, and our 
thoughts are with his family during this difficult time.
    Thank you, and I yield back.

    Chairman Palazzo. Thank you, Ms. Edwards.
    I now recognize the chairman of the full Committee, Mr. 
Smith, for his opening statement.
    Chairman Smith. Thank you, Mr. Chairman.
    Planetary science teaches us about how our solar system 
works and provides clues about how it was formed. Planetary 
missions search for scientific evidence that microbial life 
could potentially exist on planets within our solar system. 
They also map the locations of minerals and potential water 
sources on asteroids, comets, moons, and planets that could be 
extracted for use here on Earth.
    One such mission called New Horizons is a robotic mission 
scheduled to reach Pluto next year. It will provide the first 
close-up images and measurements ever made of that dwarf 
planet. A mission to Europa could search for microbial life in 
the salty waters that lie underneath that moon's icy crust.
    The President's budget requests have made it clear that 
this Administration does not consider planetary science a 
priority. Over the past two years, the Obama Administration has 
significantly cut funding for NASA's Planetary Science 
Division.
    In June, the House passed the bipartisan NASA Authorization 
Act of 2014 by a vote of 401 to 2. In May, the House passed the 
Commerce-Justice-Science appropriations bill H.R. 4660 by a 
bipartisan vote of 321 to 87. The bill provides $170 million 
more to the Planetary Science Division than the President's 
budget request for Fiscal Year 2015. The Senate Committee on 
Appropriations also approved a bill that would provide $23 
million above the President's request.
    Congress has made it clear, on a bipartisan and bicameral 
basis, that we value the planetary science community and the 
important work that they do. Planetary science missions help 
lay the groundwork for manned missions. If the Administration 
does not support planetary science, how can they claim to have 
serious interest in human space exploration? I hope that the 
Administration is paying attention to today's discussion.
    Planetary research also has significant commercial 
interest. We now know that asteroids contain rare minerals that 
are in short supply here on Earth. Several U.S. companies hope 
to someday develop business models that leverage the findings 
of planetary science to identify and extract these resources.
    The legal framework to establish property rights to these 
resources has yet to be established. H.R. 5063, the American 
Space Technology for Exploring Resource Opportunities in Deep 
Space Act--ASTEROIDS Act--introduced by Representatives Bill 
Posey of Florida and Derek Kilmer of Washington, is the first 
bill to address important issues about the relatively new 
commercial intent to obtain resources from space. It discusses 
property rights for companies that find rare minerals and other 
materials in asteroids. It also directs the President to 
minimize barriers to growth of the industry.
    And Mr. Chairman, I look forward to hearing from our 
witnesses today about their perspectives, especially on the 
ASTEROIDS Act, and the groundbreaking work that is being 
conducted in planetary science.
    I thank you, and I yield back.
    [The prepared statement of Mr. Smith follows:]

      Prepared Statement of Full Committee Chairman Lamar S. Smith

    Thank you, Chairman Palazzo, for holding this hearing. Planetary 
science teaches us about how our Solar System works and provides clues 
about how it was formed.
    Planetary missions search for scientific evidence that microbial 
life could potentially exist on planets within our solar system. They 
also map the locations of minerals and potential water sources on 
asteroids, comets, moons, and planets that could be extracted for use 
here on Earth.
    One such mission called New Horizons is a robotic mission scheduled 
to reach Pluto next year. It will provide the first close-up images and 
measurements ever made of the dwarf planet. A mission to Europa could 
search for microbial life in the salty waters that lie underneath that 
moon's icy crust.
    The President's budget requests have made it clear that this 
Administration does not consider planetary science a priority. Over the 
past two years, the Obama Administration has significantly cut funding 
for NASA's Planetary Science Division.
    In June, the House passed the bipartisan NASA Authorization Act of 
2014 by a vote of 401 to 2. In May, the House passed the Commerce-
Justice-Science appropriations bill (H.R. 4660) by a bipartisan vote of 
321 to 87. The bill provides $170 million more to the Planetary Science 
Division than the President's budget request for FY15.The Senate 
Committee on Appropriations also approved a bill that would provide $23 
million above the President's request.
    Congress has made it clear, on a bipartisan and bicameral basis, 
that we value the planetary science community and the important work 
they do.
    Planetary science missions help lay the ground work for manned 
missions. If the Administration does not support planetary science, how 
can they claim to have serious interest in human space exploration? I 
hope that the Administration is paying attention to today's discussion.
    Planetary research also has significant commercial interest. We now 
know that asteroids contain water and rare minerals that are in short 
supply on Earth. Several U.S. companies hope to someday develop 
business models that leverage the findings of planetary science to 
identify and extract these resources.
    The legal framework to establish property rights to these resources 
has yet to be established. H.R. 5063, the ``American Space Technology 
for Exploring Resource Opportunities in Deep Space Act'' (ASTEROIDS 
Act), introduced by Representatives Bill Posey of Florida and Derek 
Kilmer of Washington is the first bill to address important issues 
about the relatively new commercial intent toobtain resources from 
space.
    It discusses property rights for companies that find rare minerals 
and other materials in asteroids. It also directs the President to 
minimize barriers to growth of the industry.
    I look forward to hearing from our distinguished panel of witnesses 
today about their perspectives on the ASTEROIDS Act and the 
groundbreaking work that's being conducted in planetary science.
    Thank you.

    Chairman Palazzo. Thank you, Mr. Smith.
    I now recognize the Ranking Member of the full Committee, 
Ms. Johnson, for her opening remarks.
    Ms. Johnson. Thank you very much, and good morning. I want 
to join Chairman Palazzo and Ranking Member Edwards in 
welcoming our witnesses to this morning's hearing.
    Hearings such as today's provide a clear reminder of the 
amazing advantages--advances that are possible when this Nation 
makes a sustained commitment to investing in research and 
development. It is not an overstatement to say that the 
planetary science missions that will be discussed today would 
have been considered the stuff of science fiction not too many 
years ago.
    As I speak, a spacecraft is circling the planet Saturn and 
imaging its moons, and a robotic rover is preparing to climb a 
mountain on Mars and even attempt to image a comet that will be 
visible to the Martian sky. A spacecraft is on its way to 
Pluto, and we are discovering and tracking asteroids that could 
potentially threaten the Earth.
    Just this past weekend, in conjunction with the comments 
that are made by both the chairman and Mr. Posey, I visited 
Brownsville, Texas, and the University of Texas at 
Brownsville's astronomy program and the site for the new SpaceX 
launching station.
    We are living in a wonderful time of scientific 
exploration, and I look forward to hearing more about NASA's 
planetary science program this morning, but we also need to 
hear about what problems need to be addressed to ensure that 
this record of achievement can continue.
    And with that, I want to welcome you again and look forward 
to your testimony. Thank you, Mr. Chairman, I yield back.
    [The prepared statement of Ms. Johnson follows:]

                 Prepared Statement of Full Committeee
                  Ranking Member Eddie Bernice Johnson

    Good morning. I want to join Chairman Palazzo and Ranking Member 
Edwards in welcoming our witnesses to this morning's hearing.
    Hearings such as today's provide a clear reminder of the amazing 
advances that are possible when this nation makes a sustained 
commitment to investing in research and development. It is not an 
overstatement to say that the planetary science missions that will be 
discussed today would have been considered the stuff of science fiction 
not too many years ago.
    As I speak, a spacecraft is circling the planet Saturn and imaging 
its moons, and a robotic rover is preparing to climb a mountain on Mars 
and even attempt to image a comet that will be visible in the Martian 
sky. A spacecraft is on its way to Pluto, and we are discovering and 
tracking asteroids that could potentially threaten the Earth.
    We are living in a wonderful time of scientific exploration, and I 
look forward to hearing more about NASA's planetary science program 
this morning. But we also need to hear about what problems need to be 
addressed to ensure that this record of achievement can continue.
    With that, I again want to welcome our witnesses, and I look 
forward to hearing your testimony.

    Chairman Palazzo. Thank you, Ms. Johnson.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our witnesses. Our 
first witness, Dr. Jim Green, has served in numerous capacities 
within NASA throughout his career and has served as NASA's 
Director of Planetary Science since 2006. Dr. Green, an expert 
in space physics, has written more than 100 articles in 
referred journals, primarily on the subject of Earth's and 
Jupiter's magnetospheres. He has also authored over 50 articles 
on the technical aspects of networks and data systems. Dr. 
Green received his Ph.D. in physics from the University of 
Iowa.
    Our second witness, Dr. Philip Christensen, is Co-Chair of 
the National Research Council's Committee on Astrobiology and 
Planetary Sciences and Regents Professor at Arizona State 
University. His work in developing, building, and operating 
infrared cameras and spectrometers has been invaluable in 
studying the surface of Mars as equipment designed by Dr. 
Christensen has mapped the surface composition, search for 
habitable environments and helped to select the sites for 
future Mars landers and rovers. He served on the NRC Planetary 
Science Decadal Survey as the Chair of the Mars Panel. Dr. 
Christensen is a fellow of the American Geophysical Union and 
the Geological Society of America, and is the Co-Chair of the 
National Research Council's Committee on Astrobiology and 
Planetary Science. Dr. Christensen earned a B.S. in geology and 
an M.S. and Ph.D. in geophysics and space physics from the 
University of California-Los Angeles.
    Our third witness today is Dr. Jim Bell. Dr. Bell is a 
Professor in the School of Earth and Space Exploration at 
Arizona State University, an Adjunct Professor of Astronomy at 
Cornell University, and President of The Planetary Society. His 
career has focused on robotic space exploration, and he has 
been involved in a number of NASA space exploration missions 
including serving as the Lead Scientist in charge of the 
Panoramic Camera Color Imaging System on the Mars rovers Spirit 
and Opportunity, and as the Deputy Principal Investigator of 
the Mass Cam Camera System on the Curiosity Mars rover. Dr. 
Bell is a markedly active and prolific planetary scientist, 
having authored or co-authored nearly 200 research papers in 
peer-reviewed scientific journals. His research is frequently 
featured in publications such as Sky and Telescope and 
Scientific American. Dr. Bell received his B.S. in planetary 
science and aeronautics from the California Institute of 
Technology and obtained his M.S. in geology and geophysics and 
his Ph.D. in planetary geosciences from the University of 
Hawaii.
    Our fourth witness is Dr. Mark Sykes, CEO and Director of 
the Planetary Science Institute. Dr. Sykes is Co-Investigator 
of the NASA Dawn Mission to Vesta and Ceres, and has chaired 
many NASA review panels and advisory groups. Dr. Sykes received 
his B.A. in physics from the University of Oregon and a master 
of electronic science degree from the Oregon Graduate Center. 
He then went on to obtain a Ph.D. in planetary sciences and a 
juris doctorate from the University of Arizona.
    Our final witness, Professor Joanne Gabrynowicz, is 
Professor Emerita at the University of Mississippi and was the 
Editor-in-Chief of the Journal of Space Law. She currently 
serves on the National Geospatial Advisory Committee, the NASA 
Advisory Committee's Planetary Protection Subcommittee, and the 
U.S. Department of Commerce's National Oceanic and Atmospheric 
Administration's Advisory Committee on commercial remote 
sensing. She is also the Director of the International 
Institute of Space Law and the Chair of its publications 
committee. She received her B.A. at Hunter College and her J.D. 
from Yeshiva University.
    Thanks again to our witnesses for being here today. As our 
witnesses should know, spoken testimony is limited to five 
minutes each after which the Members of the Committee will have 
five minutes each to ask questions.
    I ask unanimous consent at this time to enter into the 
record a letter from Planetary Resources. Without objection.
    [The information appears in Appendix II]
    Chairman Palazzo. I now recognize Dr. Green for five 
minutes to present his testimony.

             TESTIMONY OF DR. JIM GREEN, DIRECTOR,

                NASA PLANETARY SCIENCE DIVISION

    Dr. Green. Mr. Chairman and Members of the Committee, I 
would like thank you so much for the opportunity to appear 
today and discuss briefly the status of NASA's Planetary 
Science Program.
    NASA'S planetary science missions continue to explore our 
solar system in unrivaled scope and depth. NASA's spacecraft 
have visited every planet as well as a variety of small bodies 
that have much to tell us about the solar system's formation 
and evolution.
    We are seeking answers to fundamental science questions 
that guide NASA's exploration of the solar system. These 
questions are: how did our solar system form and evolve? Is 
there life beyond Earth? And what are the hazards to life on 
Earth from our solar system objects?
    With an exploration strategy based on progressing from fly-
bys to orbiting to landing to roving and, finally, to return 
samples from planetary bodies, NASA advances the scientific 
understanding of our solar system in extraordinary ways while 
pushing the limits of spacecraft and robotic engineering, 
design and operations.
    Briefly, beginning in our inner solar system, NASA's 
Messenger spacecraft has been orbiting the planet Mercury now 
for more than two years. Mercury's surface has been shaped by 
impact and volcanic processes. We also find that Mercury 
harbors abundant volatiles in permanently shadowed craters. At 
the moon, the LADEE mission successfully studied the very 
tenuous lunar atmosphere and dust environment until its planned 
impact on April 17th. With LADEE, we also successfully tested 
high-speed optical communication back to Earth. This technology 
will be a critical element in our future Mars missions and 
beyond.
    At Mars, the Curiosity rover has landed in an ancient river 
bed. It has determined the age of the surrounding Martian 
rocks. It has found evidence that the planet could have 
sustained microbial life and taken the first readings of 
radiation on the Martian surface.
    Launched in November last year, the MAVEN spacecraft will 
arrive at Mars on September 21st and will explore the red 
planet's upper atmosphere, ionosphere, and their interaction 
with the sun and solar wind. MAVEN will also be in time to 
study a comet that will fly very close to Mars on October 19th.
    From the furthest reaches of our solar system, comet Siding 
Spring has traveled for more than a million years, and for the 
first time since it was formed will come close to Mars, flying 
into the inner solar system. Siding Spring will pass within 
130,000 kilometers of Mars blanketing it with cometary 
material. Many of NASA's space missions and ground-based assets 
will be studying this once-in-a-lifetime event.
    Future NASA missions to Mars include a new Mars rover 
planned for launch in 2020. For the first time, NASA scientists 
and university scientists will use Mars 2020 Rover experiments 
to carefully select a collection of rock and soil samples that 
will be characterized and stored for potential return to Earth. 
The Mars 2020 rover will also help advance our knowledge of how 
human explorers could use natural resources available on the 
red planet.
    Asteroids are important objects within our solar system, 
deserving intense study. After successfully orbiting the huge 
asteroid Vesta, in March next year Dawn will successfully get 
into orbit around Ceres, the largest object in the main 
asteroid belt.
    We are also developing a robotic asteroid rendezvous and 
sample return mission called OSIRIS-REx. The first U.S. mission 
of its kind, OSIRIS-REx is on track for launch in 2016.
    With recent Congressional support, NASA's enhanced funding 
for the near-Earth object survey and characterization 
activities necessary to protect our planet and also support 
human exploration and technology has made steady progress. In 
just over 15 years, we have found over 11,000 near-Earth 
objects. We are making great progress but we have a lot yet to 
do.
    After nine years of travel, in July 2012, the New Horizon 
spacecraft will make its historic flyby of the dwarf planet 
Pluto and its moons. It will then venture into deep space and 
into the Kuiper Belt.
    In summary, our future missions will continue along this 
path of exploration, discovery and innovation, allowing our 
scientists to answer questions I posed earlier.
    Again, thank you for the opportunity to testify today and 
your continued strong support for NASA's Planetary Science 
Program. I look forward to responding to any questions you may 
have.
    [The prepared statement of Dr. Green follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Palazzo. Thank you, Dr. Green.
    I now recognize Dr. Christensen for five minutes to present 
his testimony.

              TESTIMONY OF DR. PHILIP CHRISTENSEN,

            CO-CHAIR, NRC COMMITTEE ON ASTROBIOLOGY

                 AND PLANETARY SCIENCE (CAPS),

        CHAIR, MARS PANEL, NRC PLANETARY DECADAL SURVEY,

          REGENTS PROFESSOR, ARIZONA STATE UNIVERSITY

    Dr. Christensen. Mr. Chairman, thank you very much for the 
opportunity to speak with you today.
    Three themes are going to run through my testimony today. 
The first is that planetary science has excellent opportunities 
for continuing the exploration of our solar system, and these 
opportunities have been clearly defined in the recent National 
Research Council's Planetary Science Decadal Survey. Second, 
the significant reductions in the level of funding from NASA's 
Planetary Science Division from the previous decade have 
dramatically slowed the pace of new missions and future 
discoveries. And third, the lack of year-to-year stability in 
funding is having a serious impact on our ability to develop a 
long-term plan for planetary exploration.
    The NASA Planetary Science program has made a remarkable 
series of discoveries over the past several decades and is 
poised to continue to make major discoveries based on the plans 
outlined in the Decadal Survey. That report represented the 
consensus of the U.S. planetary science community and clearly 
defined a program centered around a suite of missions of 
differing sizes to explore the highest-priority objects in our 
solar system. The survey emphasized balance, both the 
importance of a balanced suite of small, medium and large 
missions, and also the importance of a balance of destinations.
    In the three years following the release of the Decadal 
Survey, the key recommendations and priorities remain 
essentially unchanged and they continue to have the strong 
support of the planetary science community.
    The primary challenge that the planetary program has faced 
in implemented the survey's recommendations have been the 
significant reduction in funding that occurred almost 
immediately after the report was completed. In Fiscal Year 
2013, planetary funding was reduced by over 20 percent from 
previous years and has remained close to that level since then. 
Congress has worked extremely hard to increase the budget in 
each of the past two years but the funding remains well below 
what is needed to implement the Decadal Survey recommendations.
    Equally important, year-to-year uncertainties in funding 
have made long-term planning extremely difficult. Planetary 
missions require many years to implement and operate, and 
without stable funding, these new missions either cannot be 
started or their development is stretched out with the 
inevitable increase in mission cost.
    In spite of these stresses, there have been some major 
positive advances. In my view, the three key areas of progress 
and caution are the following. First, the highest-priority 
Decadal Survey recommendation to begin the campaign to return 
samples from Mars has been initiated with the approval of Mars 
2020 rover. This first element will focus on collecting the 
samples. The follow-on missions will retrieve those samples and 
bring them back to Earth. In order for the sample return 
campaign to be successful and to remain true to the priorities 
laid out in the Decadal Survey, it is essential that this Rover 
remain focused on collecting and caching a suite of high-
quality samples. Looking to the future, NASA also needs to 
start now to begin developing the technologies that will allow 
us to bring those samples back to Earth.
    Europa was the second-highest-priority flagship 
recommendation in the Decadal Survey, and this mission has 
received support from Congress and NASA through the plans to 
request proposals for instruments to be carried on a future 
mission to explore Europa. This is a major step towards 
exploring that planet but it is only the beginning. The mission 
will require significant new funding to be implemented. In 
order to maintain a balance within the planetary science 
community, it is essential that the outer solar system remain a 
key part of NASA's portfolio. While the continued support for 
Europa from Congress is very encouraging, the commitment to 
start this mission needs to be made in earnest.
    And finally, the reduction in planetary funding has led to 
a delay in starting the next New Frontiers and Discovery 
missions. The next new Discovery mission is being initiated but 
there are no plans to work on the next New Frontiers missions. 
These small- and medium-sized missions are key elements of the 
overall strategy for a balance of mission sizes.
    With regard to human exploration, the robotic program at 
Mars, the Mars science program can and should play a major role 
in the long-term goal of sending humans to Mars. Much of the 
information that will be required to safely land and return 
humans from the surface is being obtained by the Robotic 
Science program. The properties of the surface, the nature of 
the atmosphere, the location of water, these are all areas of 
intense investigation by the ongoing Mars Science program.
    In summary, planetary science and exploration have 
virtually unlimited opportunities. These opportunities have 
been very thoughtfully outlined. NASA is ready to explore the 
amazing places of Mars and Europa and we look forward to the 
opportunities to complete that exploration.
    Thank you very much.
    [The prepared statement of Dr. Christensen follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Palazzo. Thank you, Dr. Christensen.
    I now recognize Dr. Bell for five minutes to present his 
testimony.

                   TESTIMONY OF DR. JIM BELL,

       PROFESSOR OF EARTH AND SPACE SCIENCE EXPLORATION,

                   ARIZONA STATE UNIVERSITY,

               AND PRESIDENT, BOARD OF DIRECTORS,

                     THE PLANETARY SOCIETY

    Dr. Bell. Thank you, Mr. Chairman, Members of the Committee 
for the opportunity to appear today to discuss the future of 
one of our Nation's crown jewels, which is NASA's Planetary 
Science and Solar System Exploration program. I am a Professor 
in the School of Earth and Space Exploration at Arizona State 
University, and I also serve as President of the Planetary 
Society, the world's largest public space advocacy 
organization, and today I am representing about 45,000 members 
of the Society. We are a nonprofit, independent organization of 
private citizens dedicated to advancing space science and 
exploration. The Planetary Society believes strongly that 
planetary exploration is a crucial program in a balanced NASA 
and that this exploration should follow the path recently 
defined by the National Academy of Science's Decadal Survey of 
Planetary Sciences.
    I am also a professional planetary scientist so I brought 
some pictures. We can't talk about the beauty of our solar 
system without showing some examples. So let us put the next 
slide up, please.
    [Slide.]
    Our members, the members of the Planetary Society, respond 
to planetary exploration for many of the same reasons much of 
the public does. It is bold and daring like Curiosity here 
having landed on Mars in 2012. It tackles some of the most 
fundamental questions that humans have been asking for 
millennia: where did we come from, are we alone, how common is 
life, and can it take hold on other places besides Earth.
    Next slide, please.
    [Slide.]
    As described in more detail in my written testimony, for 
the past 50 years, planetary science has made tremendous 
progress toward answering these questions, but like the tracks 
in the Curiosity rover here, we have only scratched the 
surface. Recent planetary science missions reveal a solar 
system filled with worlds begging for further exploration. 
Recent discoveries that you have heard about include water ice 
on the moon's poles, evidence from an early warm and wet 
climate on Mars, liquid water oceans under the surface of 
Jupiter's moon Europa shown in the next slide here, this 
gorgeous mosaic from the Galileo mission, and liquid 
hydrocarbon lakes on Saturn's moon Titan, shown in the next 
slide, one of those lakes showing here glinting in the sunlight 
from the Cassini mission view.
    At the same time, astronomers have discovered hundreds of 
new planets orbiting other stars, allowing scientists to study 
how other planetary systems formed, what they are like and how 
they teach us about our own home. The Planetary Society is 
proud to support them and in many cases partner with NASA in 
these endeavors.
    Among the requests in your invitation letter, you asked me 
to address concerns that we have about funding levels for 
NASA's Planetary Science program as well as to provide feedback 
on H.R. 5063. Next slide, please.
    [Slide.]
    Regarding NASA funding, NASA's Planetary Exploration 
program seems healthy today because of all the exciting 
missions and discoveries currently underway but it is important 
to note that today's successes were enabled by strong and 
consistent funding from the previous decade. It is the funding 
trajectory looking forward that is concerning, and that is 
where we believe there is a crisis for planetary exploration. 
The consistent stream of publicly exciting, scientifically 
compelling missions that we have all come to expect of NASA is 
coming to an end, largely because of proposed cuts to Planetary 
Science.
    Now, to be clear, Congress has helped to restore some of 
that funding, and we thank you very much for that, but the 
long-term outlook for planetary science still remains at risk, 
and this chart that I just had up there shows that NASA had an 
average of about six new missions per year in the previous 
decade at a launch rate of about one per year, and that record 
of launches and missions is what has led to this golden age of 
planetary exploration that we are in. Over that time period, 
NASA's Planetary Science Division budget averaged about $1.5 
billion per year, or less than ten percent of NASA's total 
annual funding. But since 2013, proposed planetary budgets have 
been cut below that historic average, and the average number of 
missions in the pipeline has plummeted in half, and indeed, 
only four launches are planned to occur before 2020, so the 
result is a de facto policy of withdrawal from some of the most 
exciting and scientifically compelling work that NASA does. We 
believe that there should be more of these missions, not fewer. 
Next slide.
    [Slide.]
    Regarding the ASTEROIDS Act, the issue of resources on 
asteroids is particularly compelling from the scientific 
perspective. Lots of interesting questions about the history of 
Earth's water, how do large impacts like from large asteroids 
like Eros seen here influence the development of life on our 
home planet, which asteroids represent impact hazards, and the 
issue is also compelling as we begin to imagine a future when 
humanity is moving outward beyond our home world. The Planetary 
Society recognizes that an agreed-upon policy regarding 
property rights for resources mined from asteroids will 
eventually be important for commercial investment. Since this 
is an area of current controversy among specialists, we advise 
careful thought and deliberation before moving forward in this 
area, and we embrace H.R. 5063's call to develop the frameworks 
necessary to attract commercial investment.
    In closing, over the past half-century--next slide, 
please--discoveries in planetary science point to a rich and 
diverse solar system and provide tantalizing clues as to 
whether life exists elsewhere. The public, like the young 
people shown here who watched and rooted for Curiosity's daring 
landing on Mars in August 2012 in Times Square, is clamoring 
for planetary exploration. Students and teachers are inspired 
to learn and share more about science and engineering and to 
search for deeper understanding of the worlds around us.
    NASA's Planetary Science program has a clear plan in the 
Decadal Survey, has the people in place to continue the 
journey, and the question is whether we made a priority and 
given the resources to meet the challenge. We strongly believe 
it should.
    On behalf of the members of the Planetary Society, I would 
like to again thank the Committee and the Congress in general 
for their solid support of America's planetary science 
exploration program over the past several years. I would also 
like to thank you personally for the opportunity to address you 
all today and to share my own thoughts on the importance of 
NASA's planetary exploration program for the Nation and for the 
world.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Bell follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Palazzo. Thank you, Dr. Bell.
    I now recognize Dr. Sykes for five minutes to present his 
testimony.

                  TESTIMONY OF DR. MARK SYKES,

                       CEO AND DIRECTOR,

                  PLANETARY SCIENCE INSTITUTE

    Dr. Sykes. Thank you. Mr. Chairman and Members of the 
Committee, thank you for the opportunity to appear before you 
today, and I would also like to express my deep appreciation 
for your continued support of solar system exploration and the 
support of Congress in these kind of recent turbulent times. It 
is much appreciated by the community.
    I am going to focus on two topics in my remarks, the 
funding level for planetary missions and the asteroid retrieval 
mission. I am concerned that our planetary mission aspirations 
and goals seem disconnected from available resources at all 
levels and that priorities can only be inferred after the fact. 
For instance, it is very good news that after the latest 
review, all planetary missions and their extended phase that 
were reviewed will continue. This is not an unexpected outcome. 
However, the Administration's Fiscal Year 2015 NASA budget 
proposal did not include funds sufficient to cover this 
possibility. It is $35 million short. These funds are requested 
in a separate Opportunity, Growth and Security Initiative. What 
is the plan if we are in C.R. all year or this initiative is 
not passed?
    On the larger scale, we would all like to see the 
recommendations of the NRC Planetary Decadal Survey 
implemented. These call for the restoration of a competed 
Discovery mission proposals every 24 month as it had in its 
first decade instead of the recent once or twice a decade. The 
Decadal Survey also calls for another round of competitive New 
Frontier proposals this decade.
    If one adds to this the Administration's Mars 2020 flagship 
initiative, the desire among many to have flagship mission to 
Europa, the continuing missions, the foundational research and 
data analysis programs and technology development programs, it 
is simply not possible to do everything with the planetary 
budget of $1.3 billion a year or even if we go to two 
flagships, $1.5 billion a year. If our competed mission 
programs are not restored, the United States, as has just been 
mentioned, will have few assets operating in the solar system 
by the end of this decade and beyond. I am concerned about 
ongoing budget pressures on our continuing missions and losing 
our skills and capabilities or maintained and grown by our 
research programs, which has suffered a collapse in selection 
rates in recent years.
    We need to have a transparently rational basis for a 
planetary budget that embraces in part a longer-term vision 
than the year-to-year chaos to which it has been subjected in 
recent years. I would suggest that this have two components: a 
predictable baseline program and a flagship program. A long-
term baseline planetary program should be built on competed 
missions, competed research and technology programs consistent 
with the Decadal recommendations. This budget should be very 
predictable from one year to the next.
    Flagships are a great value as well, but because of the 
large expense and cost volatility expected from ambitious 
projects, the cost of mission studies, instrument development, 
mission operations and science should be in a separate flagship 
program line. The mission target makes no difference.
    I would like to go on to the asteroid retrieval mission, 
and I apologize for being a little negative perhaps on this. 
The NASA Advisory Council finds that this is not a substitute 
for a human mission to an asteroid in its native orbit and the 
NRC Committee on Human Spaceflight finds the retrieval part of 
ARM to be a dead-end element. The NASA Small Bodies Assessment 
Groups most recent findings state that ARM science and 
planetary defense benefits are not compelling and that 
significant uncertainties in our knowledge of the ARM targets--
small asteroids or boulders on asteroids--contribute 
significantly to schedule and cost risk and the risk of mission 
failure. ARM is poorly conceived and poorly designed. It lacks 
fundamental knowledge of its target objects and strategically 
does not advance human exploration, does not advance science, 
does not advance planetary defense and does not advance 
understanding of the in situ resource utilization of near-Earth 
asteroids. In addition, the cost figure of less than $1.25 
billion given at the most recent SBAG meeting strains 
credulity. The OSIRIS-REx mission, which has been mentioned 
previously, is returning 60 grams to 2 kilogram of near-Earth 
asteroid material to the surface of the Earth for a cost of 
$1.05 billion, which includes the launch vehicle and $60 
million in headquarters-held reserves. We do not know what is 
in the ARM number but it is hard to believe that for an 
additional $200 million ARM is going to return 500 metric tons 
of asteroid material to retrograde lunar orbit using new 
technology not yet developed and tested on targets not 
identified and fully characterized to satisfy level I 
requirements not yet specified with an unknown level of risk 
acceptability. We can always find some benefit for whatever we 
do in space--it is what we do--but ARM sets an awfully low bar 
for rationalizing a major space initiative with a likely 
multibillion-dollar price tag.
    Thank you.
    [The prepared statement of Dr. Sykes follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Palazzo. Thank you, Dr. Sykes.
    I now recognize Professor Gabrynowicz for five minutes to 
present her testimony.

              TESTIMONY OF MS. JOANNE GABRYNOWICZ,

              PROFESSOR EMERITA, DIRECTOR EMERITA,

         JOURNAL OF SPACE LAW EDITOR-IN-CHIEF EMERITA,

                   UNIVERSITY OF MISSISSIPPI

    Ms. Gabrynowicz. Thank you. I would like to thank the 
Committee for the opportunity to address the ASTEROIDS Act. You 
have provided four specific questions, and I am delighted to 
respond. The entire text of my testimony has been submitted for 
the record.
    Current law: Current law is an amalgam of laws that address 
existing commercial activities. United States law regulates 
launches and reentry; the technology, financing, and behavior 
of various payloads; as well as related activities, 
intellectual property, for example. Laws were passed for 
specific space-related applications as their technologies 
matured and were available for commercialization: 
communications satellites, launch vehicles, remote sensing and, 
GPS. To the extent that a private asteroid mission uses any of 
these applications, the law that governs the application will 
also govern that part of an asteroid mission that uses them.
    There is one federal court case regarding an asteroid 
claim. The plaintiff alleged ownership of an asteroid based on 
a registration claim made by him on an online registry. He 
asserted that the United States infringed his property rights 
and sought compensation for parking and storage fees as well as 
special damages. The case was dismissed by the District Court 
and lost on appeal. The court held that the plaintiff appellant 
did not present a claim for which the District Court may 
provide relief.
    Potential impacts of this kind of legislation on treaties: 
The potential legal impact of this kind of legislation is 
likely to be modest. The potential political impact is likely 
to be sizable. Opinio juris--legal opinion--is crucial to 
developing the meaning of treaties. There will be disagreement 
regarding the meaning of this kind of legislation and some of 
its terms will be challenged at law and in politics. This is 
because there is no legal clarity regarding some of the issues 
that the bill addresses. The treaty regime seems to allow 
private-sector entities to extract resources if those 
activities are consistent with international law and United 
States obligations. However, the ownership status of the 
extracted resources is unclear.
    Space is a global commons. Unlike other global commons, 
there is no agreement as to whether title to extracted 
resources passes to the extracting entity. In the absence of an 
agreement, legal opinion is divided. No claims have ever been 
made in space. Therefore, the status of an intentionally 
asserted superior right based on a first claim is a question of 
first impression. The use of first-in-time claims were raised 
early as they apply to geosynchronous orbital slots.
    Some nations champion a slot allocation system based on 
first come, first served. Others advocated using equity 
principles. These two positions continue to compete in a 
complicated and highly politicized legal regime. The 
competition has produced results such as distinguishing between 
access and appropriation as well as creating different 
categories of orbital allotments and assignments. Attempts may 
be made to apply these kinds of distinctions to asteroids.
    There is need to clearly identify which federal agencies 
will be relevant to an asteroid industry and the specific 
responsibility of each agency. A private-sector asteroid 
industry is an unprecedented enterprise. It raises novel issues 
requiring a wide range of expertise. An interagency structure 
ought to be considered like the ones that formally govern GPS 
and commercial remote sensing. These feature a formal agreement 
among the lead agency and other agencies to work in 
coordination. Each agency has a particular expertise relevant 
to some specific aspect of the industry.
    One of the greatest challenges is establishing the uniform 
licensing and regulation of activities on orbit and at the 
asteroid. At this time, no agency has a specific Congressional 
grant of on-orbit authority. Contemporary space issues such as 
orbital debris, space traffic management, planetary 
contamination, and satellite servicing have already caused some 
agencies to take regulatory action or make internal procedural 
requirements that go beyond licensing and operating satellites. 
These administrative actions demonstrate attempts at a nascent 
on-orbit authority. There needs to be a specific coordinated 
grant of on-orbit authority to agencies best suited to 
regulated an industry of this nature.
    In conclusion, the bill addresses some unprecedented 
issues. If made into law, it should be expected that there will 
be both legal and political challenges to some of its terms. 
International space law contains many gaps and ambiguities. It 
is logical and appropriate to attempt to resolve those 
ambiguities in favor of U.S. national interest. At the same 
time, the final results must be consistent with international 
law and the obligations of the United States.
    I thank the Committee for giving me this opportunity, and 
thank you for your work to further develop space law.
    [The prepared statement of Ms. Gabrynowicz follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Palazzo. Thank you, Professor Gabrynowicz, and I 
want to thank all the witnesses for their testimony, reminding 
Members that Committee rules limit questioning to five minutes. 
The chair will at this point open the round of questions. The 
chair recognizes himself for five minutes.
    Dr. Green, NASA's 2014 Planetary Mission Senior Review 
Panel recommended continuing all seven missions that were up 
for review. However, the President's Fiscal Year 2015 budget 
request only included funding for the extension of the Cassini 
mission and the Mars Curiosity rover. The President's 
Opportunity, Growth and Security Initiative would provide an 
additional $35 million for mission extensions but is unlikely 
to pass Congress. Where will the money come from to pay for the 
extensions of the other five missions, and at what point does 
extending older missions threaten the creation of new missions?
    Dr. Green. Well, that is a very good question, and of 
course, my understanding is that Congress will pass a 
Continuing Resolution, and it is within that Continuing 
Resolution that we have the framework to be able to continue 
our missions as we have in FY14. Congress, of course, goes 
through the appropriation for the overall budget of planetary 
and we will execute that and we will see at that time what the 
budget level is and the prioritization that we will have to do 
to be able to maintain our mission fleet and bring in the 
quality data that is currently coming in.
    Chairman Palazzo. So I guess as a follow-up to my second 
part of the question, at what point does extending older 
missions actually threaten the creation of new missions? Can 
you kind of elaborate a little more directly on that?
    Dr. Bell. Of course. The very first recommendation of the 
Planetary Senior Review, which often gets overlooked, is that 
the seven missions that were reviewed were absolutely 
incredibly important. In other words, they provide outstanding 
value for the funding that we currently have that manages those 
missions. We don't have to launch them. They are on orbit. They 
are doing outstanding science, tackling some new questions that 
relate to the Planetary Decadal and are making excellent 
progress. So in the opinion of the community and certainly in 
the opinion of the senior review as represented by the 
community, these missions, we must find a way to continue on 
their operations.
    Of course, funding that as appropriated will allow us then 
to determine the schedule of our next new opportunities and we 
are currently working on the Discovery Announcement of 
Opportunity as directed by Congress. We are happy to state that 
we anticipate getting the release of that announcement of 
opportunity in early October.
    Chairman Palazzo. Professor Gabrynowicz, the ASTEROIDS Act 
mentions the phrase ``first in time.'' When describing property 
rights for resources extracted from an asteroid, would you 
please provide a definition of ``first in time'' and give a 
context for its use?
    Ms. Gabrynowicz. Thank you, Congressman. Actually I can't 
because there is no definition in space law for ``first-in-
time.'' I haven't researched that specific question but I would 
look to other law, property law, for example. In the United 
States, the history of claims has been, if you are the first to 
claim land and you stay there and you work the land and you 
produce value from the land, then your claim is perfected. We 
see that in things like the Homestead Act and the Oklahoma Land 
Rush, and that is where my understanding of that comes from. 
But at international space law, that is a term of art that 
doesn't exist.
    Chairman Palazzo. Does the ASTEROIDS Act have an impact on 
international treaties that the United States is party to?
    Ms. Gabrynowicz. Yes. The United States was a leader in 
developing the Outer Space Treaty, and the four core treaties. 
The United States is bound by the terms of those treaties, and 
something like the proposed legislation will catalyze a debate 
as to whether it is--whether its terms are consistent with the 
Outer Space Treaty and other relevant treaties, and the United 
States will definitely be a part of that process.
    Chairman Palazzo. In Section 51203 of the bill, subsections 
B and C talk about freedom from harmful interference and the 
need to avoid harmful interference when conducting resource 
extraction on an asteroid. Would you define the term ``harmful 
interference'' and provide the Committee again a better 
understanding of the context?
    Ms. Gabrynowicz. The term ``harmful interference'' can be 
found in Article 9 of the Outer Space Treaty. When negotiated, 
that was intended to refer to things like contamination, 
environmental degradation, one country conducting experiments 
that precluded the ability of other countries to conduct 
experiments. It did not have any application to commercial 
entities or private-sector entities regarding claims. At that 
time it was only as it referred to nation-states and their 
national space programs.
    Chairman Palazzo. Thank you. I now recognize Ms. Edwards.
    Ms. Edwards. Thank you very much, Mr. Chairman, and thank 
you--thank you, Mr. Chairman, and thank you to the witnesses.
    I want to get a couple clarifications. I think it was Dr. 
Bell, when you talked about the up-and-down resourcing of 
planetary science, and I think that we share that concern and 
the authorization that passed in this Committee we established 
an authorization level that was actually consistent with what 
the appropriation was, and I noted on your chart, though--and 
maybe we could clarify this later--that it doesn't seem to 
reflect the actual dollars that were appropriated. And so for 
fiscal year 2014, for example, the actual appropriation was 
$1.345 billion, and I recognize that that is not what it had 
been at its peak but it is one higher than what the President's 
request was, but also reflects the notion that this Committee, 
I think, is trying to get back to some more consistent funding 
levels and a balanced mission approach to planetary science. 
And so maybe we could talk offline about your numbers and our 
numbers too.
    Dr. Bell. Absolutely. I would be happy to do that.
    Ms. Edwards. And then Dr. Green, if you could, on the 
continuing --on the issue of the Continuing Resolution, I just 
want to hear some clarity as to whether you believe that 
postponing new starts would have any impact on planned 
planetary missions that have required launch dates that are due 
to planetary alignments.
    Dr. Green. You know, our current plan is indeed to release 
the next Discovery announcement. This keeps it on track for the 
community to be able to complete their development of their 
proposals and submit them by about the December-January time 
frame. We then go through an evaluation period with 
announcement later in that fiscal year. Our plan then is of 
course to keep our new missions on track to the best of our 
ability and as the budget will allow. Throughout this 
particular fiscal year, there is no need for a large influx of 
money for the Discovery program because we are primarily going 
through receiving proposals and going through the appropriate--
--
    Ms. Edwards. For the next Fiscal Year or the current fiscal 
year?
    Dr. Green. For the upcoming fiscal year.
    Ms. Edwards. Okay.
    Dr. Green. Because we will be going through the proposal 
evaluation and then selection.
    Ms. Edwards. And so if a Continuing Resolution goes through 
December, you still are on track at least through the beginning 
of the year----
    Dr. Green. Correct.
    Ms. Edwards. --with the missions that are afoot and then 
you would wait to see what the actual appropriation is beyond 
the Continuing Resolution?
    Dr. Green. Indeed.
    Ms. Edwards. Thank you very much.
    I want to go to the questions that Professor Gabrynowicz 
mentioned, and do you believe, given the things that you have 
outlined, the gaps that you have outlined in terms of our 
confluence of international law and domestic law and policy and 
relationships that it is premature to proceed with the 
ASTEROIDS Act at this point?
    Ms. Gabrynowicz. My professional opinion is the ASTEROIDS 
Act as written is very, very vague and uses terms of art in 
novel contexts that I have not seen before. So without some 
groundwork, and by that I mean political, it could be 
premature.
    Ms. Edwards. And have--are these, the discussions on the 
international context, are those ongoing right now in terms of 
the implications of international law and treaties at this 
point?
    Ms. Gabrynowicz. Well, yes, there is the U.N. Committee on 
the Peaceful Uses of Outer Space that continues to meet every 
year. There is a counterpart in Geneva, the name of which is 
escaping me right now, but the discussion of international 
treaties and space law is an ongoing activity at the United 
Nations and elsewhere.
    Ms. Edwards. But given the status, we could easily, this 
Committee, could postpone our consideration understanding the 
importance but to some additional more in-depth explorations in 
the next Congress?
    Ms. Gabrynowicz. Well, with all due respect, I don't know 
the activities that brought it to the Committee today, so I 
don't know what is going on behind it. I don't know the 
urgencies or not. Strictly reading the text and based on legal 
knowledge, it definitely needs work.
    Ms. Edwards. So we need to fill in some holes. Thank you 
very much, and thank you to the witnesses.
    Chairman Palazzo. I now recognize Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    This is for Dr. Green. What is the planetary science 
community's position on using the Space Launch System for 
planetary science missions?
    Dr. Green. I am really happy to tell you that as our Europa 
mission is in its preformulation activity, we have indeed 
connected with human exploration and understand the status of 
the development of the SLS. The SLS can potentially provide us 
an enormous opportunity to rapidly reach an outer planet's 
target, and it may fit well for the very first time with our 
Europa initiative that will be launched in the 2020s. So it is 
understudy right now. There is no firm commitments but I am 
happy to say that it does look promising.
    Mr. Brooks. Dr. Sykes, what is the consensus in the 
planetary science community on whether there is a scientific 
value expected from the NASA Asteroid Redirect Mission?
    Dr. Sykes. Well, I would say it is not a unanimous opinion 
but there is--it is not something that brings back the most 
bang for the buck, if you will, that there are higher 
priorities such as you want to characterize the near-Earth 
asteroid population to have a survey of that population from 
space in order to better understand what the real components 
are rather than an expensive mission to one small target that 
is not characteristic of the size of objects that represent a 
danger to Earth or the population of the asteroid--near-Earth 
asteroid population as a whole. So there is--the science 
support is weak.
    Mr. Brooks. Ms. Gabrynowicz, early on you state that ``no 
one agency houses all that will be needed'' to appropriately 
oversee private-sector asteroid resource recovery, going on to 
claim that the system as it stands ``will produce unnecessary 
risk that is counterproductive to industry.'' Could you please 
expand upon what this risk might look like?
    Ms. Gabrynowicz. Well, yes. The activities of asteroid 
mining have never been dealt with before, and at the same time, 
there are other activities like space situational awareness, 
space traffic management that are equally evolving and have 
aspects that are relevant to asteroid activities. So different 
agencies have different responsibilities regarding those other 
activities and there needs to be a coordinated discussion so 
information can go from one agency to the other, and when 
another activity or an event emerges which is a case of first 
impression, the agencies can discuss how to deal with that, and 
we have two very good models. One is the interagency MOU that 
is used for commercial remote sensing and also the interagency 
direction given by Congress for the governance of GPS. So I 
would suggest looking at those models and proceeding. That way 
a company will know who is responsible for what. Without it, a 
question will arise and only then do you start to look around 
to see who may know how to handle it, and that is 
unpredictable.
    Mr. Brooks. Thank you. This is for the entire panel. 
Whoever wishes to answer it, go ahead, and this is a GOP SST 
staff question. ``Congress has been clear in its support for 
NASA's planetary science missions and continues to propose 
funding at higher levels than the President's budget request. 
Why do you think the Administration continues to cut NASA's 
planetary science division?'' Whoever would like to address it 
in the time I have left?
    Dr. Sykes. Well, I would just say that it has other 
priorities. I think it ranks other activities within the agency 
higher and that is how it chooses to allocate the resources. We 
might not agree with that--Congress certainly doesn't agree 
with that--but it is the hand that we are dealt with.
    Mr. Brooks. Any specific programs that you believe the 
Administration is placing as a higher priority rather than 
planetary science?
    Dr. Sykes. I don't know. Everything?
    Mr. Brooks. That is pretty broad. Anyone else want to add 
to that? Hearing no additional response, Mr. Chairman, I yield 
back.
    Chairman Palazzo. At this time I recognize Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman, and thanks to the 
entire panel. I appreciate the comments about NASA's planetary 
science programs and your thoughts on ASTEROIDS Act. I want to 
also thank Representative Posey for the partnership on the 
ASTEROIDS Act.
    And I guess I want to ask about two things, one, value, and 
second, principle. Those were the two things that got me 
interested in the ASTEROIDS Act. So I guess my first question 
to the panel is, what is there in an asteroid that would be 
worth the effort and expense of going to go get it?
    Dr. Bell. So a variety of answers to that question. Some 
are purely scientific because we want to know how planets form 
and asteroids are the building blocks of planets. We know from 
telescopic surveys and missions that have gone on that there is 
a variety of kinds of objects out there--rocky, metallic, et 
cetera. So there are pure exploration goals associated with 
that.
    And then there is a whole side of this business that cares 
about resources and the kinds of resources that future human 
explorers and settlers will need to live off the land, if you 
will, and asteroids are a potentially fruitful supply of those 
resources. You know, many people talk about metals and many 
asteroids based on the meteorites in our collection, which are 
from asteroids, have precious metals on them. But to me, I 
think maybe the most precious resource is probably water, H20, 
because we need the water to live, of course, the O to breathe. 
The H can be an important part of rocket fuel. And so perhaps 
in the near term--and of course, we are talking decades still 
for all this to happen--but perhaps the water inventory and 
water extraction efforts would be the most compelling.
    Dr. Sykes. I would like to add to that. I fully agree. In 
fact, we had a lot of interest in humans to Mars. Humans to 
Mars is a very expensive proposition, you know, by the 
estimates that have been made, and I think that the only way 
that we are going to expand beyond low-Earth orbit in any kind 
of significant way for human activity is to find a way of 
living off the land, finding a way of reducing the amount of 
material we have to haul up the gravity well of the Earth at 
great expense, and asteroid resources, particularly water, I 
think offers that possibility. But just saying it doesn't make 
it so and there is a lot of homework that we need to do in 
order to determine whether that offers a cost-effective way of 
buying down the cost of expanding human exploration enabling 
our going to Mars.
    Mr. Kilmer. Thank you. The other thing I wanted to ask 
about, you know, my background was working in economic 
development and I worked with businesses professionally, and 
there was two things that drove my interest in this. One, we 
just talked about, the potential value of doing it, and the 
second is the sense that for businesses to make an investment, 
there needs to be some sense of certainty. My observation is, 
what business wants from government more than anything else is 
an environment of trust and predictability. So I would like to 
get some sense from you of, is there value in setting some 
rules of the road as private enterprise contemplates pursuing 
any of these valuable aspects of visiting mines--or mining 
asteroids for this purpose, and I guess relatedly, if a company 
fails in that endeavor, is there any risk to government or 
impact to NASA? Is there any downside?
    Dr. Sykes. I would say that having that legal certainty, 
that when you go out there and acquire material at an asteroid, 
you are a private company, that you own it is very important, 
and at some point that framework needs to be created to give 
them, give private corporations that certainty so that if they 
make that investment and actually go out and do it, bring stuff 
back, somebody doesn't, you know, say thank you and take it 
away from them. So that is important.
    In terms of risk to NASA, I guess I don't see--don't see 
that.
    Mr. Kilmer. Okay. Thank you. I yield back.
    Chairman Palazzo. I now recognize Mr. Hall.
    Mr. Hall. I thank you, Mr. Chairman. There has been a lot 
of exacting questions asked. I will ask maybe some practical 
ones.
    I guess the first question would be, how far away are the 
asteroids we are talking about and how long would it take to 
actually reach a target asteroid, not in inches or feet or half 
a mile, but just give a good guess.
    Dr. Sykes. Congressman, asteroids are the easiest things to 
get to in the solar system. We swim in a cloud of near-Earth 
objects.
    Mr. Hall. Does that mean they are easy, they are closer to 
us, or----
    Dr. Sykes. They are closer to us. They are dynamically 
easier to get to. It takes less fuel to get to them--not all of 
them--I am talking about a portion of the population. And I 
think there is a little chart in my statement that shows how 
many you can get to with less energy than getting to the 
surface of the moon and you can do it with turnaround times 
of--you get there on time scales of, you know, weeks, days, 
depending on how close it gets. So they offer a great variety 
of opportunity of access-easy access.
    Dr. Bell. I guess I would only add that that is true for a 
relatively random subset of them, and you know, we may have to 
go farther to get certain kinds of asteroids. The more water-
rich ones may be concentrated out of the main belt Mars and 
Jupiter. So, you know, the answer is, it varies. Some are 
close, some are further away.
    Dr. Sykes. Absolutely. There is thousands, tens of 
thousands that we know about, and it is a fraction of them, and 
their orbits are random within a range but we already know a 
large number that are easy to get to, and as we conduct space-
based surveys to find these objects, you know, surveys designed 
to find these objects like the WISE mission that recently 
greatly expanded our knowledge of this class of objects, there 
are going to be even more targets, which is totally 
predictable.
    Dr. Bell. And I think it is fair to say that no matter 
which ones we want to go to, we are going to need the sort of 
infrastructure capability to get out into deep space, whether 
it is government or a private company. It is not going to be 
the low-Earth orbit, medium-Earth orbit kind of activity. This 
is deep-space activity.
    Mr. Hall. Mr. Brooks questioned what value you would put on 
that and why spend the money and are there specific goals. Even 
the chairman mentioned the question of harmful interference by 
either your testimony or our analysis of it, who is going to 
have to pay for it. We know who is going to have to pay for it.
    But let me just ask another question. Is there any reason 
to think asteroid mining is not technically feasible? What is 
the danger in it? Why would it not be? We have talked about why 
it should be and what it is going to cost and how far away it 
is.
    Dr. Bell. In terms of the activity of doing the mining? Is 
that what you are talking about? So it is a very challenging 
environment. There is almost no gravity on these bodies, and so 
most of mining technology on the Earth that we are used to 
involves gravity in some way, and at least being able to walk 
around and move equipment around, you are talking about very 
challenging environments, very small bodies where gravity it 
1,000, 10,000 times less than what it is on the Earth. So I 
think there are some technical hurdles that need to be dealt 
with and how we operate, how do people even move around. Can we 
land on these objects? Do we actually docket with them? You 
know, very, very, very big challenges that need to get tackled.
    Mr. Hall. Well, this Committee several years ago, maybe 
seven, eight or ten years ago had a hearing on the dangers 
involved and where the asteroids were. Somebody there even 
asked if they dropped something in the middle of America, could 
you split it and have half of it hit New York and another half 
hit Los Angeles. They couldn't answer that question either.
    I guess--and we held hearings on asteroids about the one 
that exploded over Russia. If the asteroid mining industry 
develops, will the resulting technologies help us to understand 
and interact with asteroids better and perhaps protect against 
an asteroid threat?
    Dr. Sykes. Congressman, I would say that yes, but we would 
need to be developing--we need to do a lot of homework before 
we do the asteroid mining because asteroids are characterized 
by their diversity. They are going to have a variety of 
internal makeup, surface properties and compositions. How do we 
work at the surface of an asteroid? There is a lot of homework 
that needs to be done, basic research that really is best done, 
I think, by us as a country.
    Mr. Hall. I have just one more second and I just----
    Dr. Sykes. Oh, sorry.
    Mr. Hall. What recommendations--I will ask you this in a 
letter to you later--that you would make to provide rules and a 
level playing field and let the market operate form there? And 
I thank the witnesses for coming today, getting ready to come 
up here, arriving here and giving some testimony. I hope we use 
it wisely.
    I yield back, Mr. Chairman. I thank you.
    Chairman Palazzo. I now recognize Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Chairman Palazzo and 
Ranking Member Edwards, and thank you to this impressive panel 
of witnesses. We are always fortunate, particularly in this 
Committee and in this Subcommittee, to have experts like you 
help us inform our decisions.
    One of the common themes that we hear about in this 
Subcommittee, especially when we are talking about planetary 
science and human space exploration, is the role that NASA has 
had in sparking imagination, especially in the next generation, 
and when we discussed missions before, we consider what NASA 
can do that will most effectively inspire the public so they 
can turn their interest to science and restore our sense of 
pride in our leadership role in space, and we have had some 
discussions already this morning about funding and budget 
levels, and it is my understanding that NASA's recent budget 
request for planetary science is low enough to force a 
withdrawal from the European Space Agency-led Mars mission in 
2018 and focus instead on a U.S.-led mission in 2020.
    So I want to ask Dr. Green, what might be the difference 
between a U.S. participation and a European-led mission and 
leading our own mission and would that negatively impact the 
collaborations that we have had with the European Space Agency 
or other international partners?
    Dr. Green. We work very well with our international 
partners, and ESA in particular. In fact, as was earlier 
mentioned, the Rosetta mission has three U.S. experiments on it 
and a significant portion of another with more than 40 U.S. 
scientists that analyzing that fabulous data that is coming in 
that is really inspirational in terms of trying to understand 
what these cometary bodies are and how they interact with the 
inner part of the solar system.
    As we move in other areas, ESA has a major desire to go to 
Mars. Their next Mars mission is an orbiter. It is in 2016. It 
is going to look for trace gases, and NASA actually has a part 
of that, a very small part of that in terms of providing some 
electrical equipment that allows that orbiter to communicate 
with our surface assets, whether they are ESA assets or NASA 
assets. And then in 2018, we have also--although we have scaled 
back our interaction on 2018, we still have part of a major 
experimental that we worked with the Germans on in 2018 rover.
    What has happened mostly in our interactions is really the 
scale of those interactions. In the missions I mentioned, we 
were actually a minor partner. This is how we have worked the 
best. One agency leads the effort for which the other is a 
minor partner and participates and follows that lead.
    Ms. Bonamici. And I am sorry to cut you off. I want to 
allow time for another question but I am glad to see that there 
is still some role in those missions.
    Dr. Green. And we have worked very hard to keep our role.
    Ms. Bonamici. I appreciate that.
    And I want to ask Dr. Sykes a question. I see you went to 
the University of Oregon.
    Dr. Sykes. Go, Ducks!
    Ms. Bonamici. I did as well. Go, Ducks. Thank you. So 
another issue that we talk about here and related to the point 
that I raised about inspiring the public again, I try to 
explain to our constituents why this is a priority, oftentimes 
I find that the public does not understand all the technologies 
that have been developed through the space program that have 
civilian uses. There are lists of them. You know. I think our 
constituents don't understand that GPS, memory foam, solar 
cells, radial tires, and the list goes on and on, 
communications, smoke detectors, water filters that they would 
not have those products to the extent that they do now without 
space exploration. So we are always trying to educate our 
constituency about why this is important.
    But I wonder, with federal investment in NASA lagging 
oftentimes when there are tight budgets, some have suggested 
that the private sector could end up developing technologies 
that NASA could adopt, and so, analogous but different from 
asteroid mining. So are there good examples to date of private-
sector technologies being adopted by NASA for planetary science 
research or other purposes? Is there anything we can do to spur 
innovation in the private sector?
    Dr. Sykes. Well, I think the private sector is kicking off 
pretty with SpaceX and Virgin Galactic and XCOR developing 
systems, some of which--some of the SpaceX launch vehicles that 
will I am sure ultimately be used for solar system exploration 
missions at a reduced cost, and so I think that we are 
benefitting from that right now and it is opening up new 
activities in space through tourism. PSI is working with XCOR 
on the Atsa Suborbital Observatory human-tended telescopes up 
on--up into space to make observations, and I think that will 
be pretty exciting.
    Ms. Bonamici. Terrific, and I see my time is expired. I 
yield back. Thank you very much.
    Chairman Palazzo. I now recognize Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and I 
would like to compliment you and Ranking Member Edwards for 
your commitment to America's space program and keeping us the 
number one space-faring power in the world, so thank you very 
much.
    Dr. Sykes, I was actually taken by your opening statement 
that you felt it necessary to apologize for being somewhat 
negative about a program. Now, let me just note, that 
attitude--and all I can say is, I commend you for then moving 
forward with being negative in expressing yourself on a 
program. What our problem has been in trying to set priorities 
has been that people on the witness stands have refused to tell 
us what is negative about specific programs. Over the years, I 
think I rarely have ever heard anybody say no, this is not 
worth the money and we should cancel that part and we should 
finance this. If we are going to have a successful space 
program, we need people to be very frank about what they 
believe not to be worth the money, and hopefully they won't 
need to apologize about pointing out that this program isn't 
worth as much as some other program. But again, rarely do we 
ever get that, and I always--they are willing to express what 
they really want the money for but never what they don't want 
money to be spent for.
    Now, with this, let me note that in your testimony, you 
were very negative about asteroid retrieval. Let me just note 
that that was not a condemnation, however, to the ASTEROIDS Act 
nor was it in any way pooh-poohing or trying to throw cold 
water on the idea of asteroid mining and commercial activity 
dealing with asteroids. So that is a very important point to 
note here that you could have something that is a NASA program 
that deals with asteroids that may not be worth the money but 
certainly trying to encourage private investors in the initial 
steps that are going to be necessary for them to be involved is 
a very positive thing. So we do need--I think this could be the 
very first step that we will see 10, 20 years from now and then 
way beyond, maybe 50 years from now, we might see this as the 
first step towards something that was really valuable to 
humankind in that we have private sector people bringing 
minerals back to the Earth that we need for different types of 
industrialization.
    And let me go to Mr. Green. One of the reasons why I just 
stressed that people won't say what they don't think is 
worthwhile is we have certain projects that I have strenuously 
said we need to reconsider and of course people know that the 
space--the SLS program is draining about a billion dollars a 
year out of the budget now. Could you tell me if--and I heard 
your answer earlier and it was kind of a little nebulous, but 
are there any planetary or space science missions that are at 
this point--that the SLS would be a prerequisite to them other 
than sending a manned mission to Mars?
    Dr. Green. Yes, I will be happy to answer that. We have 
started interacting with human exploration which is developing 
the Space Launch System and we are finding that it has an 
opportunity to open up the outer part of our solar system, and 
what I mean by that is, because of its large-velocity injection 
from the Earth, it therefore enables a rapid transit from the 
Earth to objects such as Europa or other outer planets' 
objects. This is incredibly enabling for us.
    Mr. Rohrabacher. So there is no other rockets right now, 
that this multibillion-dollar effort, huge expenditure is 
necessary or we will not be able to send a mission by Europa? 
By the way, I said I eliminated the manned part of it.
    Dr. Green. Currently, if you compare what our conventional 
rocket capability is today, we would have to do a number of 
gravity assists on the inner part of our solar system that will 
eventually then give the velocity necessary for a spacecraft to 
go to the outer solar system. This might take 6 or seven years. 
With the Space Launch System as currently being designed, we 
can cut that more than in half, and we can get to the outer 
solar system much quicker.
    Mr. Rohrabacher. I will have to admit that cutting the time 
in half does not necessarily justify the cutting of major 
space--other space-related programs to me. I mean, cutting 
things timewise in half is--I mean, it is interesting for me to 
hear that but I know that there are lots of endeavors, and if 
what you are complaining about mainly today is this declining 
amount of money that is going into space and what we see in 
this Administration a commitment to this mega project as well 
as to Earth science, to focus on Earth science rather than 
planetary science when we have got lots of other Federal 
Government agencies and departments focusing on Earth science 
but NASA is the only one that focuses on space science. So I 
think that we have got to, number one, be very frank about what 
we think is not worthwhile and we have got to make sure that 
the money that we spend is spent wisely and maybe not just to 
cut the time frame in half at the expense of doing totally 
other programs.
    Thank you very much, Mr. Chairman.
    Chairman Palazzo. I now recognize Mr. Posey.
    Mr. Posey. Thank you very much, Mr. Chairman, and I want to 
thank all of the witnesses for your excellent testimony here 
this morning, very informative and very inspiring, and we 
greatly appreciate it.
    Professor Gabrynowicz, just a couple comments in your 
written testimony and just one quotation: ``Given the 
ambiguities in existing space law, international space law 
contains many gaps and ambiguities.''
    Ms. Gabrynowicz. Correct.
    Mr. Posey. So, I mean, there is a lot of ambiguity already 
out there.
    Ms. Gabrynowicz. Correct.
    Mr. Posey. You know, there will always be questions no 
matter what Congress does or doesn't pass right now.
    Ms. Gabrynowicz. Correct
    Mr. Posey. And referring to this legislation, as you did, 
you know, in a way that you said it is logical and appropriate 
to attempt to resolve these ambiguities in favor of the U.S. 
national interest, I am deeply grateful to see that in print, 
and I am glad that we agree on that for certain.
    Ms. Gabrynowicz. But we may not always agree as to what is 
in the national interest.
    Mr. Posey. Well, that is what is always debatable. I mean, 
you know, there will always be some people who would like to 
study this or anything else to death until the Russians, the 
Chinese or somebody else takes the lead on this as they have on 
some of the other things, and so my question was, if you agreed 
that this is a good starting point, you know, or in other 
words, you know, do you think it is time to conduct a full-
scale regulatory framework upfront or do you think we should 
proceed with a draft regulatory framework that has the 
flexibility to allow the industry and technology to develop 
further before we start putting all the regulatory framework in 
cast iron, which some people want to do?
    Ms. Gabrynowicz. I guess I would frame it differently, 
Congressman. I would frame it as follows. It needs to be 
recognized that what we are talking about is resource 
extraction, which is a very volatile and contentious issue at 
the international level. Therefore, it can be expected that 
there will be a great deal of political and legal discussion 
catalyzed by this. The language of the proposed bill will be 
analyzed in terms of current law and it will be years before 
there is any agreement on that. That will create the 
environment in which this activity needs to go forward, and I 
think it is appropriate to understand that.
    Mr. Posey. Well, if we wait years before we address the 
issue, the business just goes somewhere else, you know, and I 
guarantee you, the Russians and the Chinese will not give the 
rest of the world the thoughtful consideration that some people 
expect before we do anything.
    Dr. Green, there is concern in the science community about 
the inventory of plutonium-238, the fuel which powers long-
distance robotic spacecraft. How much plutonium-238 is on hand 
right now?
    Dr. Green. Currently, the Department of Energy has 
allocated about 35 kilograms of plutonium. Seventeen kilograms 
of that is currently within specifications for us to use almost 
immediately, providing we have the manufacturing capability to 
put it in the appropriate form.
    Mr. Posey. Okay. How many missions will that supply?
    Dr. Green. The missions are varied, depending upon the 
amount of power they have. For instance, the next nuclear 
mission that is currently being considered is indeed we are 
baselining radioisotope power for the Mars 2020 rover and that 
will need 4 kilograms. So we have adequate supply for that.
    Mr. Posey. Okay. How many upcoming planetary science 
missions will require the use of plutonium-238?
    Dr. Green. Another one that we are considering, although it 
has also not been decided, is the potential Europa mission. 
That one again is in pre-phase A and undergoing intense study. 
I think it is also important to note that our program as 
delineated in the Planetary Decadal in the New Frontiers area 
has a number of targets that probably could not be accomplished 
without radioisotope power capability, and our intent would be 
at that solicitation to be able to facilitate that.
    Mr. Posey. Okay. What is the purpose for requesting 
proposals for Discovery-class missions that were not reliant on 
the use of radioisotope power systems reflective of the concern 
about the supply of plutonium-238?
    Dr. Green. No, they were not. Our concern was the assurance 
by Department of Energy that they could develop the pellets of 
plutonium necessary to fuel our radioisotope power systems, and 
that is based on a production line that has not been fully 
maintained. We of course are now working closely with 
Department of Energy to turn that around, and we anticipate 
them getting back into production of these pellets that will 
allow our missions to move forward in the next several years.
    Mr. Posey. Thank you. Last year NASA canceled its program 
to design an advanced Stirling radioisotope generator that 
would use far less plutonium-238 per mission. Was that--what 
was the reasoning behind that, especially if there was concern 
about the amount of plutonium-238 available for long-distance 
science missions?
    Dr. Green. Yes, I think it is important to recognize that 
what we canceled was the actual flight version of the Stirling 
capability. We currently have pulled that technology back into 
house. In other words, instead of having it manufactured, we 
are continuing to test that capability within the NASA centers, 
but we are anticipating that as we may need it, we will bring 
that technology back into the future.
    Mr. Posey. Thank you, Mr. Chairman. I see my time has 
expired. Thank you.
    Chairman Palazzo. I now recognize Mr. Schweikert.
    Mr. Schweikert. Thank you, Mr. Chairman, and to Professors 
Christensen and Bell, it is nice to see ASU so well represented 
here. You know, it is--we often--I often talk to my associates 
here who are from back East who haven't seen the scale of what 
ASU has become, particularly in this last decade, and they 
don't understand, I believe we are now the largest university 
in the country and our hard sciences have done exceptional 
things.
    Mr. Chairman and to the committee, this is sort of a one-
off question but I think it actually really does move towards 
the underlying legislation, which I, you know, fully support 
the concept but, you know, we have seen throughout humankind, 
you know, ownership always is necessary for moving investment, 
but how do you do that in a world where there may be other 
treaty obligations, perception out there that these resources 
are sort of controlled either by the communal scientific 
community owned by sort of, shall we say, the collective of the 
populations of Earth with us moving forward on a piece of 
legislation like the ability to own those resources and 
therefore move forward and doing the investments. When you 
participate in international organizations, how is this 
discussion moving forward? Is there at least now a communal 
understanding that private ownership or individual ownership of 
those resources will be required to make particularly private 
investments? Anyone willing to delve into this with me? I am 
glad I created so much excitement. Professor Bell?
    Dr. Bell. Well, I think it comes back to, maybe it was Mr. 
Kilmer and others who pointed out that companies need some 
assurance in order to make that investment. So if this is going 
to go forward, this problem has to be tackled. It is not clear, 
you know, from what we have heard from today, it is not clear 
that there is a straightforward solution but it is going to 
take time and it is going to have to be consistent with our 
international treaty obligations. So I don't think it is going 
to happen quickly.
    Ms. Gabrynowicz. One thought that comes to mind is if we 
are going to talk about advancing an industry, that it be an 
industry and perhaps not individual companies. One thing in the 
language of the proposed bill when they use the term ``harmful 
interference'', it is referring to Company A or Company B. If 
Company A does something, then they are protected by this 
legislation from Company B's harmful interference. Harmful 
interference has never been used that way in the treaties. That 
is a completely novel application of that term of art, and it 
gives rise to the thought that maybe we are not talking about 
an industry here but we may be talking about the interest of 
individual companies, and if that is the case, then that is not 
going to get us what we want either.
    Mr. Schweikert. To that point, forgive me, because in my 
reading through it, I actually took it as being even a little 
more complicated because for any of us to predict what this 
industry, what this is going to look like a decade, two decades 
from now, it may be cooperative ventures. It may be public-
private. It may be a series of multinationals. Who knows? And 
so how do you design conceptually the framework in a fashion 
where we don't demonstrate a certain current arrogance that we 
know what the future is going to be? And that is sometimes 
very, very tricky to do.
    Is there--and Professor Bell, particularly to you, 
unintended consequences, and the basic word ``unintended'' 
means we don't know, but can you think of any sort of cascade 
out there as we move forward on trying to build the framework 
for this discussion that may sneak up on us?
    Dr. Bell. Well, I can't think of any technical one. I think 
the cascading effects are likely to be, as was pointed out, 
political and, you know, perhaps related to treaty obligations. 
I think, you know, another way forward, you know, historians 
would tell us to look to the past and we could look at, you 
know, analogs for development of the airline industry or 
development of the telecommunications industry and what we are 
seeing right now in commercial space is a lot of government 
seeding of these companies to help them with, you know, getting 
their footing, helping them to get some of the technologies 
under their belt that would help them attract investors. And so 
that is all moving out forward, and it is, you know, your guys' 
job to figure out the politics behind it.
    Mr. Schweikert. And I know I am over time, and I would also 
ask you to add to that history the creation of the World Wide 
Web, which ultimately had very little government touch and 
actually may be our most successful in a century of reaching, 
touching and changing our lives.
    With that, Mr. Chairman, thank you.
    Chairman Palazzo. Did you want him to answer any questions? 
I mean, even though we are short--I mean, you are out of time 
but we are coming close to the--okay.
    At this time, for the purpose of being fair and inclusive 
to all our witnesses, we are going to open up a last round of 
questions, or question, and I will recognize Ms. Edwards.
    Ms. Edwards. I just want to thank the chairman. We want to 
make sure that none of our witnesses, Dr. Christensen, gets to 
escape without answering a question, and so mine is for you, 
and it was prepared for earlier but in your prepared notes, you 
indicate that a sample caching system is a major new 
development of the Mars 2020 rover mission and should remain 
the focus of the mission, but in really simple terms what we 
know is that caching involves the rover carefully collecting a 
suite of high-quality samples to be returned to Earth by future 
missions. Are you concerned that the caching system is not a 
priority for Mars 2020, and then related to that, if you could 
give us an indication of the ways in which the planetary 
science is actually an enabler for human exploration missions 
because we like to see that there is some synergy between what 
we are doing in what I describe as the multi-mission focus of 
NASA, how is that planetary science related to the human 
exploration missions?
    Dr. Christensen. Sure. I think it is very important to 
remember the Decadal Survey spent two years looking at 
priorities across planetary science, and Mars came to the top 
of that not because of another Mars mission or another rover 
but because of those samples coming back to Earth, and there is 
a lot of pressure on actually fulfilling that series of 
missions. The first rover, its main goal is to collect that 
cache, and the concern is that if that is not kept at the 
highest possible priority, then the entire campaign is 
threatened, and then the whole rationale for making that 
mission the highest priority comes into question. So it is more 
of a cautionary note. It will be difficult. It is a complex 
system to create. We just need to make sure that NASA stays 
focused on that goal.
    Ms. Edwards. You don't--I mean, it is not your view, 
though, that talking about human exploration missions or even 
investing in those is a distraction from those commitments?
    Dr. Christensen. I don't believe so. I think within the 
planetary science community, we have this very high priority, 
and that is to get samples back robotically from Mars. To tie 
to the humans, I think it is essential that robotic science 
program and the human programs are connected. We all wish there 
was a better connection between them. Everything we are 
learning is going to inform us so we can safely send humans to 
Mars. So we think of the science part as the precursor, the 
very beginning of eventually getting humans to Mars. They are 
closely tied.
    Ms. Edwards. And do you think our budget, our budget 
considerations, I mean, where I mentioned now we are at $1.345 
billion for planetary science is reflective of that commitment?
    Dr. Christensen. On the planetary side, we are concerned. 
In the previous decade, we could have fulfilled the goals and 
recommendations in the Decadal Survey. So planetary science 
doesn't need a vast amount of new money. It needs to be 
restored to where it had been for almost a decade. The scope of 
planetary exploration or robotic and human is so different that 
there is the threat that human exploration can take money from 
the planetary science side, but I think most of us believe that 
there is actually a very reasonable divide between those two, 
and planetary will continue forward successfully.
    Ms. Edwards. Thank you.
    And Dr. Green, do you share that?
    Dr. Green. I do. I am also looking closely at Mars 2020 as 
we develop it further to ensure that it is Decadal compliant. I 
believe the Planetary Decadal is a fabulous document. You know, 
it is a consensus within the community and it is really part of 
my drive to make planetary science successful is to follow the 
Decadal to the best of our ability.
    Ms. Edwards. Thank you, Mr. Chairman, and I yield.
    Chairman Palazzo. I now recognize Mr. Posey.
    Mr. Posey. Well, thank you, Mr. Chairman. I just wanted to 
make it again abundantly clear that the letter that you entered 
into the record at the beginning of this meeting makes it very 
clear that we have Americans ready actually waiting right now 
to pursue asteroids as we speak, not in two or three years when 
Congress finishes studying it together and then moves forward 
to the gridlock that won't do anything. I mean, this is 
imminent right now, and I am just so glad to see you take this 
action on it.
    Dr. Green, currently, the United States is the only country 
able to produce plutonium-238 for use in long-distance science-
based missions. If the United States fails to produce enough 
plutonium for our civilian space program, how likely is it that 
other countries will develop the capability to send missions to 
the outer planets of the solar system?
    Dr. Green. I feel very confident in our relationship with 
the Department of Energy and the support of the Administration 
and the wonderful support that we get from Congress to be able 
to begin the production of plutonium. We are very much on track 
to be able to do that. Working with Department of Energy, we 
have actually started to test that process. We generated very 
small amounts of plutonium in one of their existing reactors. 
We have extracted that and we now are through Department of 
Energy developing the procedures and the processes to safely do 
that at about a kilogram and a half of plutonium oxide every 
year. That will meet our needs, and I believe that will secure 
our future, NASA and its approaches to going to places where 
there is very low light, whether it is the pole of Mars or 
crawling in a permanently shadowed crater on the moon or 
Mercury or going out to Pluto or Neptune or Uranus.
    So I think we are poised now to be well positioned and good 
stewards of a planetary program by your support and getting the 
funding necessary for us to regenerate plutonium, and that is 
on track.
    Mr. Posey. Thank you, Mr. Chairman. I yield back.
    Chairman Palazzo. Thank you, Mr. Chairman. And I truly want 
to thank the witnesses for their valuable testimony and the 
Members for their questions.
    The Members of the Committee may have additional questions 
for you, and we will ask you to respond to those in writing. 
The record will remain open for two weeks for additional 
comments and written questions from Members.
    The witnesses are excused and this hearing is adjourned.
    [Whereupon, at 11:52 a.m., the Subcommittee was adjourned.]
 
 
                              Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Jim Green

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Philip Christensen

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Jim Bell

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Mark Sykes

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Ms. Joanne Gabrynowicz

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
                                 [all]
</pre></body></html>
